20-6611-

i

, n- •

NO. 19£•'

31n tlje
Supreme Court of tfje ®ntteb i§>tate£

'e

$:? • 0
OFFICE OF TUE Ci £ r-tK

JOHN MULLANEY,
Petitioner,
v.

UNIVERSITY OF ST. THOMAS & STATE
OF MINNESOTA, BY AND THROUGH ITS
Commissioner of Higher Education
DENNIS OLSEN,
Respondent.

On Petition for Writ of Certiorari to the
Supreme Court of Minnesota
PETITION FOR WRIT OF CERTIORARI

John, Paul Mullaney
Pro Se Counsel for Petitioner
EGO LAW FIRM
P.O. BOX 330, 40 7th
Street S. #212
MPLS., MN 55402
(763) 645-7582
JOHNPAULMULLANEY@HOTMAIL. COM

September 29, 2020
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

RECEIVED
DEC 1 0 2020
©FFICE OF THE CLERK
SUPREME COURT. U.S.

|

i

QUESTION PRESENTED
Petitioner was in the civil process of recovering
withheld property through replevin, that the
University of St. Thomas Mn claimed was not in
procession and rescinding academic sanctions for the
property being removed. The Court ruled the Property
was in procession and be returned. However, the
sanctions were not rescinded, since Discovery for
evidence by the court was refused Discovery was
sought to learn the process and rationale for the
academic sanctions, nongermane contrived expulsion.
Discovery Rule 29 or FERPA behooves granting access
to the student Petitioner’s “written directive not
complied with” and sanctioned. The Minnesota
Supreme Court concurred with the Court of Appeals,
citing lack of Petitioner’s material fact are “mere
averments”, despite being briefed by the Petitioner’s
that substantiating evidence of the academic sanctions is
the student’s competing and heightened deterrent for
access and amend conferred, in part, by 20 U.S.C. § 1232g
(FERPA). The Material fact that sanctions exist suggests
there is alleged evidence without reflate. Refutable
evidence concedes access to investigate and amend,
through the due process of discovery.
The Question Presented Is
Is the intent of FERPA to protect the privacy of
student and faculty as a preliminary subsociety, not
use 20 U.S.C. § 1232g(a)(4)(B)(i&ii) in a punitive
manner to exclude discloser of evidence on student as a
means towards censorship?
If college hearings rises to the level of capricious
by the courts for review, should Discovery Rule 29 and
those evident material facts be relevant towards
Due Process in the Fifth Amendment to the United
States Constitution?

11

LIST OF PROCEEDINGS
Civil Proceedings in Mullaney v. St. Thomas
Minnesota Supreme
Court No.Al9-0964
John, Paul Mullaney, Petitioner, v. University of St.
Thomas, by and through its Commissioner of Higher
Education, Betsy Talbot, Respondent.
Decision Date: June 22, 2020
Minnesota Appeals
Court No. A 19-0964
John, Paul Mullaney, Petitioner, v. University ofSt. Thomas
Decision Date: June 17, 2019
Minnesota Fourth Judicial District
Court, Hennepin County
Cause No. 27-CV-18-16185
John, Paul Mullaney, Petitioner, v. University of St.
Thomas,
Decision Date: June 1, 2019

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED............................

1

LIST OF PROCEEDINGS...............................

11

TABLE OF AUTHORITIES.............................

,v

PETITION FOR A WRIT OF CERTIORARI..

1

OPINIONS BELOW................. ........................

1

JURISDICTION................................................

1

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS.....................

2

STATEMENT OF THE CASE.........................

3

REASONS FOR GRANTING THE WRIT.....

6

I.

THE MINNESOTA SUPREME COURT’S
DECISION.> CALL FOR SUPERVISORY POWER.
7

II. THE MINNESOTA SUPREME COURT’S DECISION
CONFLICTS WITH GONZAGA UNIV. V. DOE,
536 U.S. 273 (2002).......................................... 10
III. The Question Presented Raises a Public
Issue of National Importance Regarding
UNIVERSITIES’ DENIAL OF Discovery TO
REFUTABLE EVIDENCE RELAVENT TO
ACEDEMINC DISIPLINARY SANCTIONS............... 11

CONCLUSION............................................................ 15

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
John Mullaney v. University ofSt. Thomas (2019)
Mn Fourth Judicial District Court’s Decision (June 1,
2019)
16a
John, Paul Mullaney, Petitioner, v. University ofSt. Thomas
Minnesota Court of Appeal’s Decision (June 17,
24a
2019)
Order of the Supreme Court of Minnesota Denying
Petition for Rehearing (June 22, 2020) ..
31a
Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g....................
32a
42a
Excerpt V Security's Kubista reprimanded..
Excerpt 2' Security red flag Student to Swanson ...43a
Excerpt 3: Swanson retro-denial accepted Student.46a
51a
Excerpt 4- Similar student's acceptance
Excerpt 5: Kubista & Swanson at property theft. ..52a
Excerpt 6: Swanson deny property possession........54a
Excerpt 7- Remove property email directive sent to all
except Student............................................................. 57a
Excerpt 8- Academic sanction for not comply with
directive....................................................................... 61a
Excerpt 9: Returned property in Swanson possession;
except University bought books, which could be
resold__ _
_62a

V

TABLE OF AUTHORITIES
Page
CASES
Chronopolous v. Univ. of Minnesota,
520N.W.2d437, 441 (Minn. Ct.App. 1994),
(Minn. Oct. 27, 1994))..................................

4

Kallok v. Medtronic, Inc.
573 N. W.2d 356 (Minn. 1998)

7

United Wild Rice, Inc. v. Nelson,
313 N.W. 2d 628, 633 (Minn. 1982)

7

Gonzaga Univ. v. Doe,
536 U.S. at 278-89) (2002)

9, 10

Gens v. Casady Sch.,
177P.3d 565, 571-72 (Okla. 2008).

11

Falvo, 534 U.S. at 437)

11

United States v. Miami University,
294 F.3d 797)................................
Weixel v. Bd. ofEduc. of City ofN. Y.,
287F.3d 138, 151 (2d Cir. 2002).......
Lewin v. Cooke,
28F. App'x 186, 192 (4th Cir. 2002).

11,12
12
13

Doev. University ofSt. Thomas, No. 0:2016cv01127 13
Document 296 (D. Minn. 2019.
Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986)............

13

CONSTITUTIONAL PROVISIONS
Fourth and Fifth Amendment........

2

VI

Page
TABLE OF AUTHORITIES—Continued
STATUTES
Family Educational Rights and Privacy Act
(FERPA), 20 U.S.C. § 1232g....................
20 U.S.C. § 1232g(a)(4)(B)(i,ii).......................

10
12

20 U.S.C. § 1232g(a)(4)(A).
Buckley/Pell Amendment...............................

10

JUDICIAL RULES
Rule 26. General Provisions Governing Discovery! Duty of
14
Disclosure
REGULATIONS
See id. (to be codified at 34 C.F.R. § 99.66(c))....

12

See id. (to be codified at 34 C.F.R. § 99.64(b))....

12

EXSECUTIVE ORDER
Executive Order on Censorship of Free Speech on
College Campus Section 1. Section 2.............. 13

-HH

s?~<-

PETITION FOR A WRIT OF CERTIORARI
Petitioner John, Paul Mullaney respectfully
petitions for a writ of certiorari to review the judgment
of the Minnesota Supreme Court.

OPINIONS BELOW
The Minnesota Supreme Court gave decision on
June 22, 2020 for which Mullaney sought for review
and reversal of the Appellate Court unpublished
judgment on June 17, 2019 John Mullaney v.
University of St. Thomas A19-0964 The district court
ruling and summary judgment was issued June 1,
2019 John Mullaney v. University of St. Thomas 27CV-18-16185 .

JURISDICTION
The jurisdiction of this Court is invoked under 28
U.S.C. § 1257(a) which provides that “[f]inal judg­
ments or decrees rendered by the highest court of a
State in which a decision could be had, may be reviewed
by the Supreme Court by writ of certiorari where the
validity of a treaty or statute of the United States is
drawn in question.” The Due Process of Rule 26
Discovery is at issue in this action. A call to the
supervisory power. Nevertheless, while a federal
review would not change the material facts, it would
bring clarity to—whether an educational institution
required court oversight for an arbitrary decision
related a student can block a court from ordering the
release of that student’s private information excluded
under University enforcement and/or sole possession
punitive records (not notes)—has been raised
since the lawsuit’s inception.

~2 ~

The question was first raised by the Petitioner in
its complaint to FERPA, which The United States
Department of Education’s (Department) Family
Policy
Compliance
Office
(FPCO)
reviews,
investigates, and processes complaints of alleged
violations. FPCO response was that the records were
not accessible. The matter was again addressed in
district court in John Mullaney v. University of St.
Thomas regarding discovery of evidence relevant to
material fact. Addition material facts ignored in the
summary judgement under “Reason for...Wit” “I Call
of Supervisory Power”.
On the Minnesota Appeals Court, denied the
appeal on the basis “It is not clear from the record
whether the sanctions that Mullaney takes issue with
are related to the locker incident.” The U.S supreme
court Certiorari confirms the sanction “9. Failure to
comply with the directive of a University official” is
related to not receiving an email directive. The Appeal
Court denied on June 17, 2019.
The Minnesota Supreme Court affirmed the
Court of Appeals decision on June 22, 2020.

RELEVANT CONSTITUTIONAL AND
STATUTORY PROVISIONS
The relevant federal and Minnesota state
statutory provisions at issue of the Rule 26. General
Provisions Governing DiscoveryDuty of Disclosure,
and 20 U.S. Code § 1232g(l)(A) & (a)(4)(B)(i,ii).
Family Educational Rights and Privacy Act. The
following provisions of United States constitution is
implicated.
Fifth Amendment to the United States
Constitution containing a Due Process Clause. Due
Process deals with the administration of Justice and
thus the Due Process Clause acts as a safeguard from
arbitrary denial of life, liberty, or property by the
government outside the sanctions of law.

~3~
O/gyQ

STATEMENT OF THE CASE
The case involves accessing refutable evidence
related to academic disciplinary sanctions of an
eligible student and amendment of such sanctions.
The dispute involved the University of St. Thomas in
Minnesota. Petitioner John, Paul Mullaney was
sanctions by the University of St. Thomas for student
mis-conduct allegations. Related to not removing his
property from storage, which the University claims
had to be in part destroyed. The allegations were that
Mullaney did not follow a directive to remove
property. The Universities guide line which alleged
mis-conduct was “9. Failure to comply with the
directives of a University official.” Mullaney sought
relevant evidence on the ambiguous directive that was
never given as refutable. Sought to be disclosed
beyond the University of St. Thomas’s evidence
asserted. In the end of September 2017, the
University did not disclose the sought refutable
evidence and upon Mullaney enforced sanction.
The University referenced webpage to appeal the
decision, which was down. The hard copy form at the
Dean’s Office within the required timeline to appeal
was not made available.
With Mullaney’s academic review of the decision
depleted he file a civil complaint on September 27,
2018 after suspecting the University was in
possession of his property and for the sanction’s
retraction. During the trial Mullaney’s property from
the University, although previously denied in
possession of, was in part returned. The University
claimed that email directives to remove property went
out to all students. However, the email directive to
Mullaney was never received. Kubista
Evidence suggested interference. Mullaney
established a letter sent to the security commander
related to student affairs of a subordinate officer Joe
Kubista for reprimanding behavior related to libel and
stalking. Joe and the security department had
interaction an administrator Brian Swanson at the
law school who got involved with Mullaney’s
registration of a course to interfere. The interference
of registration for course being retroactively denied
after storage effected Mullaney’s removal of property,
University claiming all registered students received

~4~

email directives to remove property, which Mullaney’s
registration was interfered and prevented. It was
also Joe Kubista and Brian Swanson that were both
present, instead of maintenance, for Mullaney’s
property removal and in part destruction. According
to a previous undisclosed University report Joe
Kubista and Brian Swanson both identified the
property to Mullaney prior its destruction. Was
Mullaney not owe a directive at that time? Even if not,
Mullaney was sanctioned. "Chronopolous v. Univ. of
Minnesota, 520 N.W.2d 437, 441 (Minn. Ct. App.
1994), (Minn. Oct. 27, 1994), so a court reviewing the
merits of an academic decision looks only to see if the
decision was arbitrary or capricious. Board of
Curators, 435 U.S. at 91-92. Mullaney was “arbitrarily
or capriciously” sanctioned for not following a
directive to remove property that was never given.
The University however refused to disclose the
civil discovery for Mullaney being carbon copied on the
email directive. Undermining the sanctions.
Referencing these material facts and interference and
inconsistencies of course registration protocol between
Mullaney and similar students as accepted several
times with enforceable interest, then stored property,
however than retro denial were discovered in trial,
however a summary judgement made on May 5, 2019
before the motioned email disclosure resulting in the
sanctions not retracted. “The court finds that
because Plaintiff was not authorized to use the School
of Law lockers and because Plaintiff did not have an
enforceable interest in the items when they were
discarded, Defendant is entitled to judgment as a
matter of law.” The University circumvented
registration by interference and therefore the email
directive to remove property, which suggests
entrapment. Court did not rule how a student
could be sanctioned for not following a directive;
never given.
Mullaney appealed the District Court’s decision
on June 28, 2019. The opinion of the Appeals Court
on April 13, 2020 was that “It is not clear from the
record whether the sanctions that Mullaney takes
issue with are related to the locker incident. But in his
complaint, Mullaney requested that the district court
“dismiss” these sanctions as a remedy to his claim for
conversion. He did not raise a separate legal claim
based on the sanctions.”. The appeals court failed to
recognize that academic sanctions inhibit academic
progress as a separate issue. This decision was
appealed to the Mn Supreme Court. The supreme

™ 5 i''-'

court of Mn on June 30, 2020 conferred with the
decision of the Appeal’s court and denied the
petitioner. Mullaney seeks to Petition for certiorari
with the U.S. supreme court.
In the scenario where U.S. supreme court
delegates this complaint to be resolve with FERPA.
Mullaney filed a complaint with FERPA (attached in
the appendix). The United States Department of
Education’s (Department) Family Policy Compliance
Office (FPCO) reviews, investigates, and processes
complaints of alleged violations of the Family
Educational Rights and Privacy Act (FERPA); 20 U.S.C.
1232(g), (h) and 34 CFR part 99. FERPA is a Federal law
which affords parents certain rights with regard to their
children’s education records. The term “education
records” is defined under FERPA, with certain
exclusions, as those records that are directly related to a
student and which are maintained by an educational
agency (e.g., a school district) or institution (e.g., a school
or postsecondary institution), or by a party acting for the
agency or institution, to which funds have been made
available under any program administered by the
Secretary of Education.
These rights include the right to inspect and review
their children’s education records, the right to seek to
have their education records amended, the right to have
some control over the disclosure of personally
identifiable information contained in their education
records, and, the right to file a written complaint with
FPCO regarding an alleged violation of FERPA. Once a
student reaches 18 years of age or begins attending a
postsecondary institution, he or she becomes an “eligible
student,” and all of the parent’s rights under FERPA
transfer to the student.
FPCO investigates written complaints alleging a
violation of FERPA by an educational agency or
institution, a state educational agency (SEA) (if alleging
denial to inspect and review education records
maintained by the SEA), or a third party, if the
complaint: l) is filed by a parent or eligible student with
FERPA rights over the education records which are the
subject of the complaint, or his or her attorney or
advocate! 2) is submitted to FPCO within 180 days of the
date of the alleged violation or of the date that the
complainant knew or reasonably should have known of
the alleged violation! and, 3) contains specific allegations
of fact giving reasonable cause to believe that a violation
of FERPA has occurred.

~6
In summary Mullaney an “eligible student” who
filed a complaint under (FERPA); 20 U.S.C. 1232(g),
which affords the “right to inspect and review
educational records, the rights to seek those records
amended.” The response to the complaint from FPCO
was errored in continued dialog when they failed to
recognize the refutable evidence of not being issued an
email directive related to the student’s sanctions for not
following a directive as “Education Records”. Refusing
to further investigate.

REASONS FOR GRANTING THE WRIT
“Review on a writ of certiorari is not a matter of right,
but of judicial discretion” and “will be granted only for
compelling reasons.” Sup. Ct. Rule 10. Under Sup.
Ct. Rule 10(a), the United States Supreme Court will
be inclined to exercise its discretionary review of a
state’s highest court if “a United States court of
appeals has decided an important federal question
in a way that conflicts with a decision by a state
court of last resort; or has so far departed from the
accepted and usual course of judicial proceedings, or
sanctioned such a departure by a lower court, as to call
for an exercise of this Court's supervisory power”
Under Sup. Ct. Rule 10(b), this Court will be inclined
to exercise its discretionary review if “a state court of
last resort has decided an important federal question
in a way that conflicts with the decision of another
state court of last resort or of a United States court of
appeals.”
Under Sup. Ct. Rule 10(c), the United States Supreme
Court will be inclined to exercise its discretionary
review of a state’s highest court if “a state court . . .
has decided an important federal question in a way
that conflicts with relevant decisions of this Court.
As argued below, the Minnesota Supreme Court
decision has far departed from the accepted and
usual course of judicial proceedings regarding Rule
26. General Provisions Governing Discovery; Duty of
Disclosure which conflicts with both FERPA and a
relevant decision of this Court in Gonzaga Univ. v.
Doe, 536 U.S. 273 (2002)..

y^

i.

The Minnesota Supreme Court’s Decision, Has
So Far Departed From The Accepted And
Usual Course Of Judicial Proceedings By A
Lower Court, As To Call For An Exercise Of
This Court's Supervisory Power;.

Mr. Mullaney student and/or sole proprietor (Mr.
Mullaney student/Co.) had become aware University
enforcement department in retention of a disgruntled
officer Joe Kubista reprimanded for libel and stalking
(Exhibit 1 p.42). Mr. Mullaney/Co. has been in
communication with the representatives of the
University of St. Thomas Law School admissions
office or affiliates thereof (collectively, U.S.T. Law
School) and other concerning the registration to
audit law school course/s.
As the University
enforcement department and officer Joe Kubista
apparently knew Mr. Mullaney/Co. had an
agreement to audit law school course/s with the
U.S.T. Law
School.
The
conduct by
the
University enforcement department and officer Joe
Kubista was damaging and interfering with Mr.
Mullaney/Co. contract with U.S.T. Law School
was tortious, including but not limited to tortious
interference with contract. See Kallok v. Medtronic,
Inc. 573 N.W.2d 356 (Minn. 1998) (holding the
party who interferes or causes a breach of a
contract may be liable for damages or injunctive
relief))' United Wild Rice, Inc. v. Nelson, 313 N.W. 2d
628, 633 (Minn. 1982) (recovering a cause of action
for interference with prospective contractual
relations).
Mr. Mullaney/Co. had demanded
University enforcement department and officer Joe
Kubista cease and desist from further unlawful or
otherwise actionable contract with U.S.T. Law
School or any third party concerning the audit
registration routine protocols of law school course/
s. However, Joe Kubista's University enforcement
department was documented as communication
with Brian Swanson of the U.S.T. Law School as a
third party (Exhibit 2 p.43) beyond the routine
audit registration protocols
ofi 1.Registering
through administrator advisor, 2.) obtain waiver of
prerequisites from course professor (Exhibit 3 p.46).

"“8"“

There were several mounting material facts
(Appendix, Exhibits 1-9) of this interference:
1. Mullaney student/Co. follow two aforementioned
routine audit registration protocols as other-student acceptance into law school course/s
(Exhibit4 p.51) and was accepted.
2. After Mullaney student/Co. acceptance and
approval to attend/use class, library, and
storage! where property was thereafter placed.
Subsequently, an unorthodox retroactive
withdrawal for the reasons of a contradicting
narrative; required prerequisites Exhibit 3
p.50 (which were waived).
3. Exhibit5: The retroactive withdrawal was out of
protocol clearly by third party intervention, after
Mr. Mullaney/Co. tested a second course audit
registration. A legitimate denial would have
come from registration by advisor or professor.
However, Mr. Mullaney/Co. was again confirmed
accepted by both. But subsequently later!
retroactively withdrawn. Similar reasons and same
contradictions by a third party.
4. To prove acceptance without a clerical error Mr.
Mullaney/Co. registered a third course audit and
was accepted, then verified on security video
acceptance. Thereafter notify suspected 3rd party
interfering. To Brian Swanson’s dismay 6/15/17 at
1:30pm, withdrawal came by email from Law
School in 13 minutes. Exhibit 3 p.50
5. Exhibit 7p57: All student but Mr. Mullaney/Co.
received email directive to remove property
from storage! except Mr. Mullaney/Co. With Brian
Swanson prior interference it is highly suspect that
further interference had prevented the email
directive.
6. Exhibit 5 p52: Instead of maintenance cleaning
storage. Malicious intent and failure in duty of
care is established with the presence of Joe
Kubista and Brian Swanson’s during the theft
and destruction of Mr. Mullaney/Co.’s property.
7. Exhibit 6 p54: Brian Swanson denied being in
possession of Student's property (for over a year).

~9~
8. Exhibit 8p61: Joe Kubista's department
produced the written report alleging misconduct
for Mr. Mullaney/Co. for academic sanctions
for not following a directive (conduct rule 9).
9. Exhibit 9p62- Swanson returned property.
Destroyed property (12 of 52) was all property
that the University of St. Thomas could resell
at its general bookstore. The probability odds
of this randomly occurring to UST and not the
other property is 1 of 8.06e+67. Literahy, a
Trillion to one. Multiplied by 7. That's Science

Mr. Mullaney/Co. erroneously was denied a
continuation to trial by summary judgement.
When there was material fact the University’s
admitted that Mr. Mullaney/Co. missing from the
email directive. Put at a very significant
disadvantage from other student to remove
property. The following random sanctions for not
complying with directives, never given was
shameful negligence,' if not entrapment.
By contract common law Mr. Mullaney/Co. is
entitled to a trail recognizing material fact towards
an injunction of the interference resulting in the
academic sanctions; intent to enhance expulsion.
Davis Next Friend LaShonda D. v. Monroe Cty.
Bd. of Educ., 526 U.S. 629, 648 (1999) (“courts
should refrain from second-guessing the
disciplinary
decisions
made
by
school
administrators.”).
EXCEPT, to case law
Chronopolous v. Univ. of Minnesota, 520 N.W.2d
437, 441 (Minn. Ct. App. 1994), (Minn. Oct. 27,
1994), “for the district court to serve and oversight
when an arbitrary, capricious or bad-faith decision
by the educational decision was made.” Without
involving the irrelevant influence of FERPA
regulations for access, amendment, and privacy
which were circumvent by UST when they did not
allow Mr. Mullaney/Co. to discover refutable
evidence aforementioned in an academic hearing
and did not issued appeal form at dean’s office
upon request. The FERPA regulations Gonzaga
Univ. v. Doe that have no right as a spending bih
that only serves as a deterrent and an incentive of
conduct.
Since all academic conflict in this
scenarios can be set aside for the judicial process
under common law contractual tortious
interference, and therefore the resulting random
negligent sanctions can be rescinded as arbitrary.

~ 10 ^

II.

The Minnesota Supreme Court’s Decision
Conflicts with Gonzaga Univ. v. Doe, 536 U.S.
273 (2002).

Mr. Mullaney/Co. being denied evidence related to
material fact 1-8 under FERPA would conflict with
Gonzaga Univ. v. Doe, 536 U.S. at 278-89. Mr.
Mullaney/Co. has no barriers with FERPA in this civil
matter as preliminary discovery establishes tortious
Further evidence from
contractual interference,
material facts is sought through the civil process of
discovery. In addition, the balance test FERPA access is,
“Should the merit of privacy outweigh public disclosure”.
In this case the privacy belongs the Mr. Mullaney/Co. to
access; which is the precedence and barrier to access
records. Most importantly FERPA has no rights in
judicial law (monetary deterrent and incentives).
In Gonzaga Univ. v. Doe, 536 U.S. at 278-89, a
Gonzaga University undergraduate sued the school and
teacher under 42 U.S.C. § 1983, alleging a violation of
FERPA. The student was planning to become an
elementary teacher, and under Washington State Law,
all new teachers required an affidavit of good moral
character from their graduating college. The teacher
in charge of certifying such affidavits, overheard a
student conversation discussing sexual misconduct by
the undergraduate student, and after an inves­
tigation, refused to certify the affidavit. The student
sued, claiming a violation of his confidentiality rights.
This Court ruled that FERPA, which prohibits the
federal government from funding educational institu­
tions that release education records to unauthorized
persons, does not create a right which is enforceable
under 42 U.S.C. § 1983. In so ruling, the Court
declared that FERPA is merely spending legislation
which prohibits “the federal funding of educational
institutions that have a policy or practice of releasing
education records to unauthorized persons.” Gonzaga,
536 U.S. at 276. In other words, this Court held that
the statute addresses only federal funding and does
not confer any enforceable right of privacy which could
serve as a basis for withholding student records.
Gonzaga also respects FERPA lack of rights to
claim no monetary damages with the sub-societies of
education institutions that students accept their
governing rules except with oversight when decisions
are arbitrary, capricious or bad-faith

A

~ 11 ~

III. The Question Presented Raises a Public Issue of National
Importance Regarding Universi- ties’ Denial Of Discovery
To Refutable Evidence Relavent To Acedeminc Disiplinary
Sanctions.
Relevant to review, since acceptance of the district court’s ruling
instead of calling for an exercise of this court's supervisory power,
would set a precedence for refusal of access to education records
contrary to court rules Claims against private schools and public
universities that have a contractual relationship with students in
which students pay tuition and the school provides instruction, form
some of the terms of the relationship, have proved more favorable for
plaintiffs. Gens v. Casady Sch., 177 P.3d 565, 571-72 (Okla. 2008). The
case involved a private-school student, a court refused to dismiss a
case that included claims of invasion of privacy and conversion of a
student's school and psychological records where the private school
refused to release them to the parent.
Access has expanded over the years post Falvo, Buckley/Pell, and
U.S. v. Miami U. Post Falvo the scope of educational record access
has broadened. Justice Scalia disagreed vehemently with the "central
custodian" approach to defining FERPA records. Falvo, 534 U.S. at
437 (Scalia, J., concurring in the judgment). Justice Scalia noted that
this formulation would also exclude teacher grade books (which of
course are kept by individual teachers rather than school central
records custodians); this was an issue that the majority opinion
explicitly did not decide”.73
Congress deliberately broadened
FERPA's definition.
FERPA defines education records quite broadly as all
information recorded about a student maintained by a school or a
person acting for the school. 20 U.S.C. § 1232g(a)(4)(A). A Joint
Statement in Explanation of Buckley/Pell Amendment provides
guidance on the purpose of this change: “An individual should be able
to know, review, and challenge all information” “that an institution
keeps on him, particularly when the institution may make important
decisions affecting his future, or may transmit such personal
information to parties outside the institution/college.”
United States v. Miami University, 294 F.3d 797, 812-15 (6th
Cir. 2002); WASH. REV. CODE. ANN. § 42.17.310(l)(a) (West 2006).
Most recently and significantly, the Sixth Circuit held in a post-Falvo
case that discipline records are covered by FERPA.
FERPA "education records": (l) adult students may access their
own records! (2) records may not in general be disclosed without
written consent of the adult student; and (3) adult students may
request an internal hearing to challenge the accuracy of their records.
Federal district courts adopted the balancing test to decide a
motion to quash a subpoena of student records, reviewing the records

~ 12

and weighing the need for the requested student information against
the intrusion on the student's privacy. The Petitioner’s is not a 3rd
party requesting discovery, but the Student therefore meets the
balance test of merit affecting future and his own privacy. MN Data
Practices Act § 13.012 et seq. in addition allows for disclosure of
information.
In the context of John, Paul Mullaney v. University of St.
Thomas case. The primary issues can be resolved by basic common
law material fact discovery on contractual interference meeting the
threshold for the district court to intervene by the education
institution acting in an arbitrary and capricious manner while
adhering to the fundamental FERPA regulations not relevant to this
case. However, this case can hold national importance in the
censorship of free speech.
Courts are increasingly holding or suggesting that FERPA is
only violated by a pattern or policy of misconduct, rather than
individual violations. See Weixel v. Bd. of Educ. of City of N.Y., 287
F.3d 138, 151 (2d Cir. 2002) (holding multiple alleged privacy
violations by a single school were insufficient to establish a FERPA
claim) University of St. Thomas has a history of mishandling of
FERPA through a pattern of policy by a Breach of the Covenant of
Good Faith and Fair Dealing in Doe v. University of St. Thomas,
No. 0:2016cv01127 - Document 296 (D. Minn. 2019), in addition to
Breach of Contract and Negligence. University of St. Thomas’s
pattern of misconduct with conflict and altering information before
disclosure with an evident agenda to dismiss/expel students that
brought rise to controversy. However, a pattern of violations is not
required. The regulations also provide that FPCO may issue a finding
of noncompliance based on a single violation. See id. at 74,855 (to be
codified at 34 C.F.R. § 99.66(c)). In addition, FPCO may initiate
investigations of FERPA violations even if no complaint has been
filed. See id. (to be codified at 34 C.F.R. § 99.64(b)). A federal court
of appeals recently held that violation of FERPA's access provisions
does not require a showing of a pattern or policy. Lewin v. Cooke, 28
F. App'x 186, 192 (4th Cir. 2002).
The University of St. Thomas policy pattern as well as the action
of individuals in violation of the FERPA access. When they abuse
“Factfinders” to collect and alter disciplinary evidence before
disclosure. Done by means of exemption not intended for this purpose.
There are several categories of records exempted, such as "sole
possession" notes created by an individual school employee such as a
teacher or counselor as a confidential memory aid Id. §
1232g(a)(4)(B)(i). and certain records of a school's law enforcement
unit, 20 U.S.C. § 1232g(a)(4)(B)(ii).
(i) records of instructional, supervisory, and administrative
personnel and educational personnel ancillary thereto which are in

~ 13 -

the sole possession of the maker thereof and which are not accessible
or revealed to any other person except a substitute;
(ii) records maintained by a law enforcement unit of
the educational agency or institution that were created by that law
enforcement unit for the purpose of law enforcement;
The University of St. Thomas pattern of mishandling is by
placing a “sole possession” or “enforcement” faculty as “Factfinder”
with a conflict of interest compensation from the University of St.
Thomas to control the facts, evidence, statements, and allegations
before allowing student access. Under this control the information is
reiterated into a disclosed summary. Which is rout with potential for
information manipulation, missing, alteration, and edits. Similarly,
to Mr. Mullaney/Co. University enforcement excluding in their
sanction: a directive of noncompliance. However, All received an
email directive but Mr. Mullaney/Co.
Doe v. University of St. Thomas, No. 0:2016cv01127 - Document
296 (D. Minn. 2019. The Court did believe that UST acted improperly
on two occasions. First, while Dean Baughman was writing the final
disposition letter to Doe of the Factfinder’s to punishment “she sent
a draft to VP Lange, who would go on to be the Appeal Officer, and
asked for suggestions or edits”. Second, just six days after Doe
received notice of the decision, Baughman emailed Lange, “stating
that she didn’t see any of the grounds for appeal being applicable.”
Material fact and discovery thereof carry the merits of Mullaney
v. UST alone. However, the institution is clearly abusing their right
to excluded records with edits before discovery. Since FERPA issues
no rights Gonzaga and if there is material fact within “sole
possession” and/or “law enforcement”; Federal district courts adopted
the balancing test “Does the merit of privacy outweigh public
disclosure”? Merit of public disclosure may be warranted with 2nd and
3rd hand altering and editing that have conflict of interest with
information in disciplinary matters.
Especially in regard to
censorship of free speech to plead innocent of guilt. Addressing these
legal concerns may be exercised potentially, through Executive Order
on Censorship of Free Speech on College Campus Section 1. Purpose.
The purpose of this order is to enhance the quality of postsecondary
education by making it more affordable, more transparent, and more
accountable. Institutions of higher education (institutions) should be
accountable both for student outcomes and for student life on campus.
In particular, my Administration seeks to promote free and open
debate on college and university campuses. Free inquiry is an
essential feature ofour Nation's democracy, and it promotes learning,
scientific discovery, and economic prosperity. We must encourage
institutions to appropriately account for this bedrock principle in
their administration of student life and to avoid creating
environments that stifle competing perspectives, thereby potentially
impeding beneficial research and undermining learning.

~ 14 ~
Sec. 2. Policy. It is the policy of the Federal Government to: (a)
encourage institutions to foster environments that promote open,
intellectually engaging, and diverse debate, including through
compliance with the First Amendment for public institutions and
compliance with stated institutional policies regarding freedom of
speech for private institutions;
The University of St. Thomas has a policy or a pattern of hiding
behind a shield of anonymity by allegations within enforcement unit
or sole possession under FERPA, which under Gonzag establishes no
rights from FERPA, but is only a spending bill which serves as a
deterrent and incentive.
However, a resolution in the John, Paul Mullaney v. University
of St. Thomas may be sought in common law at the district court level
for tortious contractual interference and breach of contract with
relevant material facts for discovery. A fact is material
(aforementioned: I. CALL TO SUPERVISORY POWER 1'8) if it might affect
the outcome of the suit, and a dispute is genuine if the evidence is
such that it could lead a reasonable jury to return a verdict for either
party. Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 248 (1986).
Examples: l) Third party tortious contractual interference with
routine audit course registration. Material fact. 2) Resulting is
student sanction for a compromised directive not complied because
not given. Material fact. Threshold for Rule 26. General Provisions
Governing Discovery; Duty of Disclosure is “Subdivision (b) is the
heart of the discovery rule, and defines what is discoverable.”
“Anything that is relevant is available for the other party to request,
as long as it is not privileged or otherwise protected. (Gonzaga!
FERPA is not right) Under §1, relevance is defined as anything more
or less likely to prove a fact that affects the outcome of the claim. It
does not have to be admissible in court as long as it could reasonably
lead to admissible evidence.”
The preponderance of material facts by the Petitioner alone
should allow discovery under Rule 26 and not be prevented by the
privacy of FERPA, which the petitioner is involved with a decision
affecting future and transmittance to his information, and most
specially preventing would have no claimable right.

~ IS ~

CONCLUSION
For all of these reasons, and in the interest of justice, the petition
for a writ of certiorari should be granted.
Respectfully submitted,

John, Paul Mullaney
Pro Se Counsel for Petitioner
EGO LAW FIRM
P.O. BOX 330, 40 7th Street S. #212
MPLS., MN 55402
(763) 645-7582
JOHNPAULMULLANEY@HOTMAIL. COM

SEPETEMBER 29, 2020

17
No.

*1

IN THE
SUPREME COURT OF THE UNITED STATES

John. Paul Mu Haney
(Your Name)

— PETITIONER

VS.
Universiy of St Thomas

— RESPONDENT(S)

PROOF OF SERVICE
do swear or declare that on
I. John. Paul Mullaney
this date,
20 , 20 , as required by Supreme Court
September 29,
Rule 29 I have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS and PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within 3
calendar days.
The names and addresses of those served are as follows^
U.S. Supreme Court, 1 1st Street North-East Washington D.C. 20543 Attention: Clerk’s
Office — Mr.
Redmond Barns, and The University of St. Thomas 2115 Summit Ave. St. Paul Mn 55105
Attention: General

r

Council Office

I declare under penalty of perjury that the foregoin]
Executed on November 30

_

li1 u c1

., 20 20

£

BENJAMIN W PORTER
Notary Public
State of Minnesota
My Commission Expires
.January 33,2024

This opinion will be unpublished and
may not be cited except as provided by
Minn. Stat. § 480A.08, subd. 3 (2018).
STATE OF MINNESOTA
IN COURT OF APPEALS
A19-0964
John Mullaney,
Appellant,
vs.
University of St. Thomas,
Respondent.
Filed April 13, 2020
Affirmed
Cochran, Judge
Hennepin County District Court
File No. 27-CV-18-16185
John Mullaney, Minneapolis, Minnesota (pro se appellant)
Jessica L. Klander, Jonathan P. Norrie, Bassford Remele, P.A., Minneapolis, Minnesota
(for respondent)
Considered and decided by Cochran, Presiding Judge; Bryan, Judge; and
Segal, Judge.
UNPUBLISHED OPINION
COCHRAN, Judge
In this appeal from summary judgment, appellant John Mullaney argues that the
district court erred in determining that there were no genuine issues of material fact
regarding his claim for conversion and that the district court failed to address his “claim”
for “dismissal of retaliatory sanctions,” a remedy sought in his complaint. Because we

conclude that no genuine issues of material fact exist regarding Mullaney’s conversion
claim, and because we discern no basis to reverse based on a failure to address the remedy
sought for that claim, we affirm.
FACTS
In 2017, Mullaney was a graduate student at the University of St. Thomas (the
university). Mullaney was enrolled at the university’s business school. The university also
has a law school. Mullaney was not (and has never been) a law student. But it is undisputed
that in 2017, Mullaney was storing some of his personal property—specifically, personal
papers and textbooks—in a law school locker.
The law school cleans out the lockers every year before assigning them to new
students in the fall. In May 2017, the law school posted signs near the law school lockers
that notified students that they must remove their property before August 4, 2017, or the
property would be discarded. The law school also sent an email to students who were
assigned lockers to notify them of the locker cleanout. Mullaney did not remove his
property from the locker he was using before August 4, 2017. On August 8, 2017, the
university removed Mullaney’s property from the locker.
In September 2018, Mullaney initiated a lawsuit against the university claiming that
the university was liable for approximately $7,500 for “remov[ing] and discard[ing]” the
property that Mullaney had stored in the locker. As a remedy for his unspecified cause of
action—which the district court interpreted as a claim of conversion—Mullaney sought
both monetary damages and “dismissal of any retaliatory sanctions for the [pjlaintiff s
claims.”
2

In its answer to the complaint, the university alleged that Mullaney was not given
permission or authorized to use a law school locker—only law students were permitted to
use them. The university also noted that it had posted signs near the lockers indicating that
the lockers would be cleaned out.
The university moved for summary judgment.

It submitted affidavits from

university employees that established that (1) the law school registrar who had the authority
to assign law school lockers (the registrar) did not give Mullaney permission to use a
locker; (2) the university posted signs near the law school lockers indicating that students
must remove their property before August 4 or their property would be discarded; (3) the
signs remained posted until the lockers were cleaned out; and (4) the university discovered
some of Mullaney’s property in an unemptied recycling bin and returned the property to
Mullaney in the course of the litigation. The university argued that there was no genuine
issue of material fact that Mullaney was not authorized to use a locker and no genuine issue
of material fact that Mullaney had abandoned his property when he did not remove his
property in compliance with the signs that the university posted. At a hearing on the
university’s motion for summary judgment, Mullaney asserted that the registrar gave him
permission to use a law school locker and that he had no intention of abandoning his
property.1 But Mullaney did not submit any evidence to support his assertions.

1 Mullaney only identified the registrar as the person who gave him permission to use a
locker after the university identified the registrar as the person with the authority to assign
lockers.

3

The district court granted summary judgment to the university. It reasoned that it
was undisputed that Mullaney was not a law student, that Mullaney was using a law school
locker without authorization, that the law school posted signs and sent an email to law
students with an assigned locker informing students that the lockers had to be cleaned out
by August 4, 2017, and that the lockers were in fact cleaned out on August 8, 2017. Based
on these undisputed facts, the district court concluded that the university was justified in
discarding the property that Mullaney had left in the locker and that Mullaney’s conversion
claim failed. Alternatively, the district court concluded that Mullaney’s conversion claim
failed because Mullaney had abandoned his property and therefore he lacked an
enforceable interest in the property.
Mullaney appeals.
DECISION
Mullaney argues that the district court erred in granting summary judgment to the
university. He maintains that he had permission to use a locker and that the university
should have returned his property to him, rather than discarding it (and later finding some
of it). He also asserts that the university wrongfully refused to return his property. The
university argues that the district court properly granted summary judgment because there
were no genuine issues of material fact in dispute and the university was legally justified
in discarding the property under the circumstances.
A district court must grant summary judgment if the “movant shows that there is no
genuine issue as to any material fact and the movant is entitled to judgment as a matter of
law.” Minn. R. Civ. P. 56.01. Appellate courts review the grant of summary judgment
4

de novo to determine “whether there are genuine issues of material fact and whether the
district court erred in its application of the law.” Montemayor v. Sebright Prods., Inc.,
898N.W.2d 623, 628 (Minn. 2017) (quotation omitted). A “party resisting summary
judgment must do more than rest on mere averments.” DLH, Inc. v. Russ, 566 N.W.2d 60,
71 (Minn. 1997). A reviewing court views the evidence in the light most favorable to the
party against whom summary judgment was granted. STAR Ctrs., Inc. v. Faegre & Benson,
L.L.P., 644 N.W.2d 72, 76-77 (Minn. 2002). “All doubts and factual inferences must be
resolved against the moving party.” Montemayor, 898 N.W.2d at 628 (quotation omitted).
Summary judgment is “inappropriate when reasonable persons might draw different
conclusions from the evidence presented.” Id. (quotation omitted).
Mullaney’s complaint alleged a claim of conversion. Minnesota courts have defined
conversion as
an act of willful interference with the personal property of
another, done, without lawful justification, by which any
person entitled thereto is deprived of use and possession, and
the exercise of dominion and control over goods inconsistent
with, and in repudiation of, the owner’s rights in those goods.
Williamson v. Prasciunas, 661 N.W.2d 645, 649 (Minn. App. 2003) (quoting
Christensen v. Milbank Ins. Co., 658 N.W.2d 580, 585 (Minn. 2003)) (other quotations
omitted). Put another way, “[conversion is the wrongful exercise of dominion or control
over the property of another.” Bates v. Armstrong, 603 N.W.2d 679, 682 (Minn.
App. 2000), review denied (Minn. Mar. 14, 2000).
Mullaney argues that the district court erred by granting summary judgment because
there was a genuine issue of material fact regarding whether a university employee gave
5

him permission to use a law school locker. He maintains that the registrar gave him verbal
permission to use a law school locker. But, as the district court correctly determined,
Mullaney offered no evidence to support his claim that he had permission to use a law
school locker. Instead, he merely asserted in pleadings and at the summary judgment
hearing that the registrar granted him permission to use the locker. In other words,
Mullaney relied on mere averments. A “party resisting summary judgment must do more
than rest on mere averments.” DLH, Inc., 566 N.W.2d at 71.
Because Mullaney did not provide more than mere averments to support his claim
that he was given permission to use a law school locker, there did not exist a genuine issue
of material fact that he had permission. And Mullaney cites no authority to suggest that
the university acted without lawful justification when it disposed of items stored in the
university’s locker without permission. Consequently, we conclude that the district court
did not err in granting summary judgment on the grounds that the university was justified
in discarding the property under the circumstances. And, because the district court did not
err in granting summary judgment on the grounds that Mullaney’s affirmative claim for
conversion failed, we need not determine whether the district court erred in concluding that
summary judgment was appropriate on the alternative grounds that Mullaney lacked an
enforceable interest in the property.
We also do not reach the issue of whether the district court erred by not addressing
Mullaney’s “claim” for the dismissal of “retaliatory sanctions.” The primary issue that
Mullaney appears to raise in his appellate brief is that the district court failed to analyze
whether sanctions that the university imposed against Mullaney were justified. It is not
6

clear from the record whether the sanctions that Mullaney takes issue with are related to
the locker incident. But in his complaint, Mullaney requested that the district court
“dismiss” these sanctions as a remedy to his claim for conversion. He did not raise a
separate legal claim based on the sanctions. Because the district court properly granted
summary judgment against Mullaney’s conversion claim, there was no need for the district
court to address the remedies that Mullaney sought for that claim.
Affirmed.

7

31
July 14, 2020

STATE OF MINNESOTA
IN SUPREME COURT

Offi ce of
Appellate Courts

A

A19-0964
John Mullaney,
Petitioner,
vs.
University of St. Thomas,
Respondent.

ORDER
Based upon all the files, records, and proceedings herein,
IT IS HEREBY ORDERED that the motion of John Mullaney for leave to proceed in
forma pauperis be, and the same is, granted.
IT IS FURTHER ORDERED that the petition of John Mullaney for further review
be, and the same is, denied.
Dated: June 30,2020

BY THE COURT:

Lorie S. Gildea
Chief Justice

i

I

